No. 20-999
IN THE

Supreme Court of the United States
LLOYD INDUSTRIES, INC.,
Petitioner,
v.
RONALD WATSON,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
RESPONDENT’S BRIEF IN OPPOSITION

Adina H. Rosenbaum
PUBLIC CITIZEN
LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000

Samuel A. Dion
Counsel of record
DION & GOLDBERGER
1845 Walnut Street
Suite 1199
Philadelphia, PA 19103
(215) 280-0138
samueldion@aol.com

Counsel for Respondent

March 2021

i
QUESTION PRESENTED
A jury determined that petitioner Lloyd Industries
unlawfully terminated respondent Ronald Watson
based on his race and awarded Mr. Watson compensatory and punitive damages. The district court reduced the punitive damages award to an amount five
times the compensatory damages award. On appeal
by Lloyd Industries, the Third Circuit affirmed.
The question presented is:
Did the court of appeals correctly conclude that the
punitive damages award, as reduced by the district
court, did not violate due process because it was not
grossly disproportionate to the gravity of Lloyd Industries’ offense?

ii
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
TABLE OF AUTHORITIES ...................................... iii
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE .................................... 2
REASONS FOR DENYING THE WRIT .................... 9
I.

The decisions below are consistent with this
Court’s precedents. .............................................. 9

II. This Court should not adopt the bright-line
1:1 ratio suggested by Petitioner. ...................... 13
III. The lower courts are not confused over the third
Gore guidepost.................................................... 14
CONCLUSION.......................................................... 18

iii
TABLE OF AUTHORITIES
Pages
Cases
Bains LLC v. Arco Products Co.,
405 F.3d 764 (9th Cir. 2005) ......................... 15, 17
BMW of North America, Inc. v. Gore,
517 U.S. 559 (1996) ......................................passim
Bogle v. McClure,
332 F.3d 1347 (11th Cir. 2003) ........................... 16
CGB Occupational Therapy, Inc. v.
RHA Health Services, Inc.,
499 F.3d 184 (3d Cir. 2007) ................................... 6
Goldsmith v. Bagby Elevator Co.,
513 F.3d 1261 (11th Cir. 2008) ........................... 16
Kim v. Nash Finch Co.,
123 F.3d 1046 (8th Cir. 1997) ............................. 16
Pacific Mutual Life Insurance Co. v. Haslip,
499 U.S. 1 (1991) ............................................. 7, 14
State Farm Mutual Automobile Insurance Co.
v. Campbell,
538 U.S. 408 (2003) .....................................passim
Swinton v. Potomac Corp.,
270 F.3d 794 (9th Cir. 2001) ......................... 15–16
TXO Production Corp. v. Alliance Resources Corp.,
509 U.S. 443 (1993) ............................................ 17

iv
Williams v. ConAgra Poultry Co.,
378 F.3d 790 (8th Cir. 2004) ......................... 15, 17
Statutes
42 U.S.C. § 1981 .......................................................... 4
42 U.S.C. § 2000e-2 ..................................................... 4

INTRODUCTION
A jury determined that petitioner Lloyd Industries
terminated respondent Ronald Watson’s employment
based on his race and awarded Mr. Watson compensatory and punitive damages. Considering the reprehensibility of Lloyd Industries’ conduct, the ratio between the compensatory and punitive damages, and
the statutory cap on damages under Title VII of the
Civil Rights Act of 1964, the district court rejected
Lloyd Industries’ argument that a punitive damages
award was improper, but reduced the punitive damages award to comport with due process. The Third
Circuit affirmed, determining that the reduced punitive damages award was not disproportionate to Lloyd
Industries’ conduct so as to be unconstitutional.
Lloyd Industries asks this Court to grant further
review of this fact-based conclusion, contending that
the Third Circuit treated the single-digit ratio between the punitive and compensatory damages as a
“safe harbor” that “insulates a punitive damages
award from meaningful constitutional scrutiny.” Pet.
i. Lloyd Industries’ characterization of the Third Circuit’s decision, however, is not supported by the
court’s opinion. The Third Circuit did not create a safe
harbor for any punitive damages award that is a single-digit multiple of the compensatory damages
award. The Third Circuit noted that the ratio here fell
within this Court’s guidance and explained that it was
rejecting Lloyd Industries’ argument that the award
was unconstitutional because that argument “ignore[d] evidence of overtly racial bias that the jury
found credible.” Pet. App. 3a.
Lloyd Industries also contends that the Court
should grant review to “rekindle” the “rule” that

2
“when compensatory damages are substantial, a 1:1
ratio is the outermost limit of the due process guarantee.” Pet. i. Such a “rule,” however, has never existed.
Rather, this Court has “consistently rejected the notion that the constitutional line is marked by a simple
mathematical formula.” BMW of N. Am., Inc. v. Gore,
517 U.S. 559, 582 (1996).
Finally, Lloyd Industries asks this Court to grant
review to settle “confusion” in the lower courts about
the role of the Title VII statutory cap in assessing the
constitutionality of punitive damages in Section 1981
cases. Pet. i. But Lloyd Industries has not shown that
any such confusion exists; indeed, the case law shows
consistent treatment of the Title VII cap in Section
1981 cases. And contrary to Lloyd Industries’ arguments, the district court did not afford the cap “little
attention or significance.” Id. at 30. Rather, based
largely on the cap, the district court significantly reduced the punitive damages award.
Based on the facts and circumstances of this case,
both the district court and court of appeals determined that the punitive damages award was constitutional. That determination is correct, and the Court
should deny the petition.
STATEMENT OF THE CASE
A. Ronald Watson was hired by Lloyd Industries
in December 2014 to work in the company’s Montgomeryville, Pennsylvania plant. Pet. App. 17a. Mr. Watson worked as both a press punch operator and assembler, spending approximately forty percent of his time
on assembly. Id. Mr. Watson was never written up for
poor job performance at Lloyd Industries, and he received compliments from the shop steward for his
work. Id.

3
During Mr. Watson’s time working for Lloyd Industries, Mr. Watson, Shaun Mathis, and Shawn
Broadnax were the only three black employees at the
Montgomeryville plant. Id. at 14a. Around six months
after Mr. Watson started work, Lloyd Industries hired
a new plant manager, Thomas Prendergast. Mr. Prendergast was not friendly toward black employees; for
example, he would not respond when Mr. Mathis said
good morning but would respond to the non-black employees. Id. at 16a, 17a; 3d Cir. App. 348.
On October 29, 2015, Mr. Prendergast told Mr.
Watson that he was laying him off. When Mr. Watson
asked why, Mr. Prendergast nastily responded “because I can.” Pet. App. 18a; 3d. Cir. App. 476. Mr. Watson then went to speak to William Lloyd, the owner of
the company, who got in his face and told him to “just
take the layoff, alright?” Pet. App. 18a.
That same week, Lloyd Industries also laid off or
caused to resign the other two black employees at the
plant. Id. at 14a. One, Mr. Mathis, had asked Mr.
Prendergast if he could have a more flexible schedule
so he could obtain a second job. Although other employees had been given flexibility in the past, Mr.
Prendergast denied the request and reduced Mr.
Mathis’s hours, leading him to resign effective October 26, 2015. Pet. App. 16a; 3d Cir. App. 340–41, 346,
549. And on October 30, 2015, the day after it laid off
Mr. Watson, Lloyd Industries laid off the other black
employee, Mr. Broadnax. Pet. App. 14a; 3d Cir. App.
302. No non-black employees were laid off at that
time. 3d. Cir. App. 549.
Under the collective bargaining agreement that
applied at the plant, the principle of plant-wide seniority applied to layoffs. Id. at 185; Pet. App. 19a.

4
When he was terminated, Mr. Watson had more seniority than Steve Malloy, a white employee who
worked as an assembler. Pet. App. 15a, 17a. When Mr.
Malloy came to Mr. Watson’s work area, Mr. Watson
had to show him how to do the work. Id. at 17a. Nonetheless, Lloyd Industries laid off Mr. Watson, not Mr.
Malloy.
After Mr. Watson was terminated, a white employee named Tom Malone, who previously worked in
shipping and receiving, was assigned to operate his
punch press machine. Mr. Lloyd testified that one reason he terminated Mr. Watson was to make room for
Mr. Malone. Id. at 15a; 3d. Cir. App. 314.
After his termination, Mr. Watson filled out a
grievance form with his union representative, but did
not hear back about the union’s investigation. He subsequently filed a racial discrimination complaint with
the Pennsylvania Human Rights Commission. Pet.
App.18a.
Mr. Watson was distraught and depressed after
his termination. Id. He and his long-time partner had
recently bought a house, and she had to rearrange her
life and work extra shifts to cover for his job loss. Id.
at 20a. He did not find another full-time job for another two-and-a-half years. Id. at 19a.
B. On March 8, 2017, Mr. Watson filed this case in
the Eastern District of Pennsylvania, alleging that
Lloyd Industries discriminated against him based on
race, in violation of 42 U.S.C. § 1981 and Title VII of
the Civil Rights Act of 1964, 42 U.S.C. § 2000e-2.
The district court held a jury trial in November
2018. The jury found in favor of Mr. Watson and
awarded him $50,000 in emotional damages, $49,960

5
in back pay, and $750,000 in punitive damages. Pet.
App. 5a.
After the verdict, Lloyd Industries moved for judgment as a matter of law, a new trial, or remittitur. The
district court denied the motion for judgment as a
matter of law or a new trial, noting that “there was
ample evidence from which a reasonable jury could
conclude that Lloyd Industries’ proffered reason for
laying off Watson—a lull in work—was pretext for racial discrimination.” Id. at 24a.1 The district court also
noted that Mr. Prendergast “had an aggressive, somewhat hostile, manner when he testified, which is not
reflected in the transcript,” and which may have warranted the jury to disbelieve his testimony and affected the punitive damages award. Id.
______________________________________________________________________

At trial, Mr. Lloyd also claimed (as Petitioner does here, see Pet.
4) that Mr. Watson had been a poor worker who would return
from lunch with alcohol on his breath. Pet. App. 14a–15a. Mr.
Watson testified, however, that he did not drink on the job, id. at
18a, and his partner of forty years confirmed that Mr. Watson
drank only socially and did not come home smelling of alcohol,
id. at 20a. Moreover, Mr. Lloyd admitted at trial that he would
let Mr. Watson use heavy machinery after lunch and acknowledged that Mr. Watson was never disciplined for performance issues. Id. at 15a. Although Mr. Lloyd claimed that the lack of discipline was due to a policy not to write up employees, id., the
plant manager, Mr. Prendergast, testified otherwise, stating that
the company wrote employees up after they received a verbal
warning, id. at 20a–21a. In addition, one of the other former employees, Mr. Mathis, testified that he had received a write-up, id.
at 16a, and documentation introduced at trial showed that employees at the plant had been terminated based on “write up
slips,” 3d Cir. App. 549. Particularly given the conflicting testimony, there was ample evidence for the jury to conclude that Mr.
Lloyd’s testimony about Mr. Watson’s job performance and alcohol use was not credible and was pretextual.
1

6
C. After requesting and receiving supplemental
briefing on damages, the district court affirmed the
jury’s compensatory damages award, but remitted the
punitive damages. Id. at 10a–11a.
With respect to punitive damages, the district
court explained that the “Due Process Clause of the
Fourteenth Amendment prohibits the imposition of
grossly excessive or arbitrary punishments on a tortfeasor.” Id. at 8a (quoting State Farm Mut. Auto. Ins.
Co. v. Campbell, 538 U.S. 408, 417 (2003)). To determine whether the punitive damages award was
grossly excessive or arbitrary, the court examined
three “guideposts” set forth in Gore, 517 U.S. at 575–
86: “(1) [the] degree of reprehensibility of the defendant’s conduct; (2) the ratio of actual harm to punitive
damages; and (3) the comparison of punitive damages
awarded to the civil or criminal penalties that could
be imposed.” Pet. App. 8a.
With regard to the first Gore guidepost, the court
explained that its analysis was guided by five factors:
whether
(1) the harm caused was physical as opposed
to economic; (2) the tortious conduct evinced
an indifference to or reckless disregard of
the health or safety of others; (3) the target
of the conduct had financial vulnerability;
(4) the conduct involved repeated actions or
was an isolated incident; and (5) the harm
was the result of intentional malice, trickery, or deceit, or mere accident.
Id. at 11a (quoting CGB Occupational Therapy, Inc. v.
RHA Health Servs., Inc., 499 F.3d 184, 190 (3d Cir.
2007) (quoting State Farm, 538 U.S. at 419)). The
court found that Mr. Watson had demonstrated that

7
Lloyd Industries’ behavior was reprehensible. Noting
that racial discrimination is “illegal and repugnant,”
the court rejected Lloyd Industries’ argument that no
punitive damages were justified. Id. at 8a.
With regard to the second Gore guidepost—the ratio of actual harm to punitive damages—the district
court noted that the punitive damages award was approximately 7.5 times the compensatory damages
award. It explained that neither this Court nor the
Third Circuit had adopted strict ratios for punitive
awards but that, in State Farm, this Court had stated
that, “in practice, few awards exceeding a single-digit
ratio between punitive and compensatory damages, to
a significant degree, will satisfy due process.” Id. at 9a
(quoting State Farm, 538 U.S. at 425). The district
court also explained that State Farm observed that,
“in an earlier case affirming a punitive damages
award, the Court ‘concluded that an award of more
than four times the amount of compensatory damages
might be close to the line of constitutional impropriety.’” Id. (quoting State Farm, 538 U.S. at 425 (discussing Pac. Mut. Life Ins. Co. v. Haslip, 499 U.S. 1,
23 (1991))).
With regard to the third Gore guidepost—which
compares punitive damages to penalties that can be
imposed—the district court acknowledged that for an
employer the size of Lloyd Industries, punitive and
compensatory damages under Title VII would be
capped at $50,000. Id. at 10a. The court stated that,
although Congress chose not to impose a similar cap
on damages under Section 1981, the fact that it had
imposed that cap for damages under Title VII was “a
significant consideration.” Id.

8
In light of its analysis, the similarity between
claims under Title VII and Section 1981, and the fact
that the punitive damages award was fifteen times
the cap on damages under Title VII, the district court
determined that the jury’s punitive damages award
was excessive and did not comport with due process.
Id. It concluded that a punitive damages award that
was five times the compensatory damages award was
“reasonable in light of the facts and circumstances of
this case and comports with due process,” id., and, accordingly, reduced the punitive damages award to
$500,000, id. at 3a; 3d Cir. App. 21.
D. Lloyd Industries appealed to the Third Circuit,
which affirmed in an unpublished decision.2 Reviewing the constitutionality of the punitive damages
award de novo, the court of appeals determined that
the award was not “so grossly disproportional to
[Lloyd Industries’] conduct as to amount to a constitutional violation.” Pet. App. 3a (internal quotation
marks and citation omitted). The court noted that the
ratio between the compensatory and punitive damages was “1:5, a single digit ratio, which falls within
the Supreme Court’s guidance.” Id. (citing State
Farm, 538 U.S. at 410). Moreover, the court explained
that Lloyd Industries’ argument that the punitive
damages award was excessive “ignores evidence of
overtly racial bias that the jury found credible.” Id.
The court of appeals subsequently denied Lloyd Industries’ petition for rehearing and rehearing en banc.
Id. at 27a.
______________________________________________________________________

In its statement of the parties to the proceeding, Petitioner mistakenly states that Mr. Watson was an appellant in the court of
appeals. Pet. ii. Mr. Watson was the appellee.
2

9
REASONS FOR DENYING THE WRIT
I. The decisions below are consistent with this
Court’s precedents.
This Court has recognized that “[p]unitive damages may properly be imposed to further … legitimate
interests in punishing unlawful conduct and deterring
its repetition.” Gore, 517 U.S. at 568. “Only when an
award can fairly be categorized as ‘grossly excessive’
in relation to these interests does it enter the zone of
arbitrariness that violates” due process. Id.
In Gore, the Court set forth three “guideposts” for
courts to consider in determining whether a punitive
damages award is grossly excessive: “the degree of
reprehensibility of the [defendant’s misconduct]; the
disparity between the harm or potential harm suffered by [the plaintiff] and his punitive damages
award; and the difference between this remedy and
the civil penalties authorized or imposed in comparable cases.” 517 U.S. at 575.
The Court elaborated on these guideposts in State
Farm, 538 U.S. 408. The Court set forth five factors
for courts to consider in determining the defendant’s
reprehensibility. Id. at 419. It declined to impose a
firm constitutional limit on the ratio between the
harm or potential harm to the plaintiff and the punitive damages award, but it explained that “few
awards exceeding a single-digit ratio between punitive and compensatory damages, to a significant degree, will satisfy due process.” Id. at 425. And it determined that the lower court’s analysis in the case before it, which had focused on out-of-state and dissimilar conduct, could not sustain a punitive damages
award that was 14,500 times the “most relevant civil
sanction.” Id. at 428.

10
In this case, the district court expressly examined
each of the three Gore guideposts. With respect to the
first guidepost, the court specifically noted that its determination on reprehensibility was guided by the five
factors set forth in State Farm. Pet. App. 11a. With
respect to the second guidepost, the court quoted State
Farm’s statement that few awards exceeding singledigit ratios will satisfy due process and its suggestion
that the punitive damages award in a prior case,
which had been more than four times the compensatory damages award, “might be close to the line of constitutional impropriety.” Id. at 9a (quoting State
Farm, 538 U.S. at 425). Turning to the third guidepost, the district court directly compared the punitive
damages award to the cap on damages under Title
VII, concluding, based largely on that comparison,
that the punitive damages awarded by the jury were
excessive. Id. at 10a. Based on its analysis, the district
court concluded that a “punitive damages award that
is five times the compensatory damages is reasonable
in light of the facts and circumstances of the case,” id.,
and it reduced the punitive damages award to
$500,000, id. at 3a; 3d Cir. App. 21.
The Third Circuit reviewed the district court’s decision de novo and agreed that the reduced award
comported with due process. Pet. App. 3a. Citing State
Farm, the court of appeals explained that the ratio of
compensatory to punitive damages fell within this
Court’s guidance. The court then further explained
that Petitioner’s argument that the award was unconstitutional “ignore[d] evidence of overtly racial bias
that the jury found credible.” Id.
Nonetheless, Petitioner asserts that the decisions
below “conflict with this Court’s precedents.” Pet. 8.

11
According to Petitioner, by not explicitly discussing
each of the three Gore guideposts and five reprehensibility factors, the court of appeals “rubber stamped”
the district court’s award, “effectively disregarded”
the first and third guideposts, and “ignore[d] the reprehensibility guidelines.” Id. at 17, 22, 23. That the
court of appeals did not mechanically walk through
each of the guideposts and factors, however, does not
demonstrate that the court “abandon[ed] its function.”
Id. at 23. To the contrary, by explaining that it was
rejecting Petitioner’s argument that the punitive
damages award was unconstitutional, which had included arguments about the three Gore guideposts
and five reprehensibility subfactors, the court of appeals made clear that it disagreed with Petitioner that
the award violated due process based on those considerations. Pet. App. 3a.
Likewise, the Third Circuit’s recognition that the
ratio of punitive damages to compensatory damages
falls within this Court’s guidance does not mean that
the court “transform[ed] any single digit award into a
safe harbor,” “supplanting the other constitutional
guideposts.” Pet. 16, 17. The court of appeals did not
affirm the award simply because it reflected a singledigit ratio. Rather, the court explained why it was rejecting Petitioner’s argument that the award was
grossly disproportionate to Petitioner’s conduct: because that argument “ignore[d] evidence of overtly racial bias that the jury found credible.” Pet. App. 3a.
The court of appeals’ explanation demonstrates
that, although it disagreed with Petitioner about the
reprehensibility of Petitioner’s conduct, the Third Circuit did not “effectively disregard” reprehensibility as
a factor. Pet. 17; see also Pet. App. 8a (district court

12
opinion stating that racial discrimination is “repugnant” and concluding that Mr. Watson “demonstrated
that Defendant’s behavior was reprehensible”). And
State Farm’s discussion of factors relevant to reprehensibility does not require courts to ignore the selfevidently reprehensible nature of certain behavior,
such as intentional racial discrimination.
Petitioner contends that the decision below is part
of a trend of lower courts “provid[ing] safe harbor to
single-digit ratios and [] rubber-stamp[ing] all such
ratios without performing a full review.” Pet. 25. That
courts do not always frame their opinions explicitly in
terms of each guidepost and subfactor, however, does
not demonstrate a failure to “conduct meaningful reprehensibility analyses.” Id. at 19. Where a defendant’s
arguments are sufficiently meritless to be disposed of
quickly, a relatively short decision does not indicate
that the court abandoned its responsibility to undertake the required review. Nor does a court’s decision
to uphold a single-digit ratio award indicate that the
court provides a safe harbor to single-digit awards.
And although Petitioner quotes an article asserting a
disparity in the way some lower courts have treated
the second Gore guidepost, see Pet. 21–22 & nn.1–3
(comparing, e.g., a decision of a district court in the
Fifth Circuit with a subsequent Fifth Circuit decision), Petitioner does not contend that there is a split
of authority between the Third Circuit and other
courts of appeals in their treatment of punitive damages awards.
In this case, Lloyd Industries intentionally discriminated against Mr. Watson, a financially vulnerable man, acting with malice or reckless indifference
to his federally protected rights. See 3d Cir. App. 46.

13
Lloyd Industries terminated Mr. Watson’s employment, based on his race, depriving him of his source of
income, during the same week that it terminated or
caused to resign all of the black employees at the same
plant. The district court reduced the amount of punitive damages to an amount only five times the compensatory damages, basing the reduced award on the
“facts and circumstances of this case,” and taking into
account the cap on damages under Title VII. Pet. App.
10a. Under the circumstances here, the Third Circuit
correctly concluded that the reduced punitive damages award was not grossly excessive in relation to Petitioner’s wrongful conduct. Id. at 2a–3a. The Third
Circuit’s decision is consistent with this Court’s precedent and correct, and the petition for review should
be denied.
II. This Court should not adopt the bright-line
1:1 ratio suggested by Petitioner.
This Court has “consistently rejected the notion
that the constitutional line is marked by a simple
mathematical formula.” State Farm, 538 U.S. at 424
(quoting Gore, 517 U.S. at 581); see also id. at 425
(“[T]here are no rigid benchmarks that a punitive
damages award may not surpass.”). Nonetheless, Petitioner asks this Court to grant review to “rekindle”
the “rule” that “when compensatory damages are substantial, a 1:1 ratio is the outermost limit of the due
process guarantee.” Pet. i. But the sentence on which
Petitioner relies for its argument—State Farm’s statement that, “[w]hen compensatory damages are substantial, then a lesser ratio [than those the Court had
previously upheld], perhaps only equal to compensatory damages, can reach the outermost limit of the due
process guarantee,” 538 U.S. at 425—did not establish

14
a “rule” that a 1:1 ratio is the largest permitted in all
cases involving substantial damages. To the contrary,
this Court has consistently recognized that the precise
award that is permissible depends on “the facts and
circumstances of the defendant’s conduct and the
harm to the plaintiff.” Id.; see also Gore, 517 U.S. at
581–82. Petitioner offers no reason why this Court
should abandon its longstanding rejection of “a categorical approach” and adopt Petitioner’s rule that a
1:1 ratio is the outermost limit in cases involving substantial damages, regardless of the egregiousness of
the defendant’s conduct. Gore 517 U.S. at 582. Moreover, if the Court were to consider adopting Petitioner’s rule, it should do so in a case in which that
rule would apply—that is, a case with a substantial
compensatory damages award. This case, in which the
compensatory damages were under $100,000, is not
such a case. See, e.g., Haslip, 499 U.S. at 24 & n.2 (upholding as constitutional a punitive damages award
reflecting a 4.2:1 ratio where the compensatory damages were $200,000—over twice the compensatory
damages at issue here).
III. The lower courts are not confused over the
third Gore guidepost.
After considering the first two Gore guideposts, the
district court stated that, under the third guidepost, it
“must recognize the cap on punitive and compensatory
damages under Title VII.” Pet. App. 9a–10a. “While
Congress chose not to impose a statutory cap on damages under § 1981,” the court explained, “the fact that
it has imposed this limit for the same behavior is a
significant consideration.” Id. at 10a. Based on its
analysis, “the similarity between the Title VII and
§ 1981 claims,” and the fact that the jury’s punitive

15
damages award was “fifteen times the statutory cap
on all damages under Title VII,” the court concluded
that the jury’s punitive damages award was excessive
and remitted the punitive damages from $750,000 to
$500,000, reducing the ratio of punitive to compensatory damages from 7.5:1 to 5:1. Id.; 3d Cir. App. 21.
Accordingly, Petitioner’s contention that the “third
guidepost has been all but ignored,” Pet. 29, has no
support in this case, in which the district court considered the guidepost expressly. In fact, far from paying
only “lip service to the third guidepost,” id. at 30, the
district court remitted the punitive damages award
based largely on the comparison of the punitive damages award to the Title VII statutory cap.
Petitioner asserts that “the case law is in disarray
regarding the force to be given to the [Title VII] statutory cap on damages.” Id. at 29. Rather than demonstrating disarray, however, the cases Petitioner cites
for that assertion, Williams v. ConAgra Poultry Co.,
378 F.3d 790, 798 (8th Cir. 2004), and Bains LLC v.
Arco Prods. Co., 405 F.3d 764, 777 (9th Cir. 2005),
take similar approaches to the Title VII cap: Like the
district court here, they view the cap as a useful comparator, while also recognizing that it does not apply
to Section 1981. See Williams, 378 F.3d at 798 (explaining that it would “be inappropriate for the courts
simply to extend the Title VII limitations to § 1981
cases under the guise of interpreting the Constitution,” but that the comparison to Title VII is a “relevant consideration”); Bains, 405 F.3d at 777 (9th Cir.
2005) (stating that the Section 1981 cap is an “appropriate benchmark for reviewing § 1981 damage
awards, even though the statute [does] not apply to
§ 1981 cases”); see also Swinton v. Potomac Corp., 270

16
F.3d 794, 820 (9th Cir. 2001) (noting that the Title VII
cap does not apply to Section 1981 cases, but that the
difference between the punitive damages award and
the Title VII cap weighed in favor of a reduction); Kim
v. Nash Finch Co., 123 F.3d 1046, 1068 (8th Cir. 1997)
(considering the Title VII cap among other factors in
holding that the punitive damages award, as remitted
by the district court, was not excessive).
Citing Bogle v. McClure, 332 F.3d 1347 (11th Cir.
2003), which involved a Section 1983 claim, Petitioner
suggests that the Eleventh Circuit takes a different
approach than the Eighth and Ninth Circuits. See Pet.
33. Bogle agreed, however, that “a comparison to the
Title VII cap may be instructive,” though, as here and
in the Eighth and Ninth Circuits, that court declined
to hold that the Title VII cap applied to a claim that
did not arise under Title VII. Id. at 1362. Furthermore, Bogle considered the Title VII cap and concluded that, although the punitive damages awarded
were “more than the damages available under Title
VII for analogous conduct, the difference [was] not
enough, by itself, to suggest that the punitive damages award violates due process.” Id. Citing Bogle, the
Eighth Circuit’s decision in Williams, and the Ninth
Circuit’s decision in Swinton, the Eleventh Circuit
likewise considered the Title VII cap in a more recent
Section 1981 case, Goldsmith v. Bagby Elevator Co.,
513 F.3d 1261, 1284–85 (11th Cir. 2008).
Petitioner also claims that lower courts’ treatment
of the Title VII cap cannot “be harmonized” because,
after courts take the Title VII cap into account, the
ratio between the resulting awards and the Title VII
cap differs in different cases. See Pet. 34–35. The third
Gore guidepost, however, is only one of several factors

17
that courts consider in determining whether a punitive damages award is excessive. The ratio between
the Title VII cap and the ultimate punitive damages
award may differ in different cases because of differences unrelated to the cap, such as differences in the
reprehensibility of the defendant’s conduct or in the
amount of compensatory damages awarded. For example, Petitioner notes that, in Bains, the Ninth Circuit remanded for the district court to reduce the punitive damages to an amount 1–1.5 times the Title VII
cap, whereas in Williams, the Eighth Circuit held that
the punitive damages award had to be remitted to an
amount four times the Title VII cap. In Bains, however, an amount 1.5 times the Title VII cap was nine
times the compensatory damages, while in Williams,
an amount four times the Title VII cap was equal to
the compensatory damages.
Simply put, that different punitive damages
awards are constitutional in cases with different facts
and circumstances does not demonstrate confusion
among the lower courts. See TXO Prod. Corp. v. All.
Res. Corp., 509 U.S. 443, 457 (1993) (plurality opinion)
(“[A] jury imposing a punitive damages award must
make a qualitative assessment based on a host of facts
and circumstances unique to the particular case before it.”). “Because no two cases are truly identical,
meaningful comparisons of such awards are difficult
to make.” Id. “The precise award in any case … must
be based upon the facts and circumstances of the defendant’s conduct and the harm to the plaintiff.” State
Farm, 538 U.S. at 425. Here, based on the facts and
circumstances of this case, the court of appeals correctly held that the district court’s reduced punitive
damages award was constitutional. No further review
is required.

18
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,
Samuel A. Dion
Counsel of record
DION & GOLDBERGER
1845 Walnut Street
Suite 1199
Philadelphia, PA 19103
(215) 280-0138
samueldion@aol.com
Adina H. Rosenbaum
PUBLIC CITIZEN LITIGATION
GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
Counsel for Respondent
March 2021

